                                                                  OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 1 of 4) Version 4.0a
              Reporting Entity: Department of Transportation - OIG
            Month Ending Date: 04/30/2010

                                                          Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau          Recovery Act TAFS       Award Type      US Indicator      Total Obligations    Total Gross Outlays     Direct or     Ordering TAFS
                                                                                                                                         Reimbursable
No.
      Department of              (69-0131 2009 \ 2013)         Other           Y - US            $2,772,332           $2,361,746             Direct          N/A
      Transportation - OIG       Transportation - OIG -
  1                              Recovery Act
      Department of              (69-0131 2009 \ 2013)     Contract and        Y - US            $325,000                  $0                Direct          N/A
      Transportation - OIG       Transportation - OIG -      Orders
 2                               Recovery Act
 3
 4
 5
 6
 7
 8
 9
10

                                               Non-Recovery Act Funds Used on Recovery Act Activity
           Agency / Bureau        FY 2009 Non-Recovery     Total FY 2009    Total FY 2009   FY 2010 Non-Recovery     Total FY 2010       Total FY 2010
                                        Act TAFS            Obligations     Gross Outlays         Act TAFS            Obligations        Gross Outlays
No.                                                                                                                                                                      .
   Department of Transportation - (69-0130 2009)               $1,569,106      $1,569,106 (69-0130 2010)                   $1,063,077         $900,924
 1 OIG                            Transportation - OIG                                    Transportation - OIG
 2
 3
 4
 5
 6
 7
 8
 9
10




                                                                                                                                         DOT OIG Monthly Report Num 13 03-31-10
                                                                           OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 04/30/2010

                         FTE Working on Recovery
                                                                                                                                 Testimonies:
     Fiscal Year           2009                2010                 Cumulative
      Newly Hired FTE
                           0.77                 7.49                   8.26                                                    Provided (monthly):     1
         (cumulative):
        FTE Funded by
   Recovery Act Funds      1.54                 22.34                 23.88                                                 Provided (cumulative):     5
         (cumulative):
    FTE Not Funded by
   Recovery Act Funds     15.20                 6.76                  21.96
         (cumulative):

                                                                                                                     Audits / Inspections / Evaluations /
           Complaints                Whistleblower Reprisal Allegations                   Investigations                                                            Training / Outreach
                                                                                                                                   Reviews
          Monthly Data                         Monthly Data                               Monthly Data                          Monthly Data                           Monthly Data
                                                                                                                                                                      Training Sessions
            Received:      9                            Received:      0              Opened (this month):      0            Initiated (this month):   1                                   10
                                                                                                                                                                             Provided:
                                                                                 Active (as of the end of the           In Process (as of the end of
                                                        Accepted:      0                                        26                                   13            Individuals Trained:    804
                                                                                                     month):                            the month):

                                                                                                                        Completed Final Published                    Hours of Training
                                                                                          Pending Decision:     9                                      0                                   804
                                                                                                                                 Work Products:                             Provided:

                                                                                                                         Priority Interim Published                 Outreach Sessions
                                                                                     Closed without Action:     1                                      0                                    1
                                                                                                                                    Work Products:                        Conducted:

                                                                                                                                Unpublished Work
                                                                                  Accepted for Prosecution:     1                                      0
                                                                                                                                       Products*:
                                                                                      Prosecution Declined:   0
                                                                                    Referred for Alternative
                                                                                                              0
                                                                                                 Resolution:
 Cumulative Data Since 2/17/2009      Cumulative Data Since 2/17/2009            Cumulative Data Since 2/17/2009     Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                        Completed Final Published                     Training Sessions
            Received:     230                           Received:      2             Closed without Action:     5                                      8                                   202
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published
                                                        Accepted:      2          Accepted for Prosecution:     25                                     0           Individuals Trained:   14,622
                                                                                                                                    Work Products:

                                                                                                                                Unpublished Work                     Hours of Training
                                                                                        Prosecution Denied:     2                                      0                                  14,752
                                                                                                                                        Products:                           Provided:
                                                                                    Referred for Alternative                                                        Outreach Sessions
                                                                                                                1               Cumulative Total:      8                                   146
                                                                                                 Resolution:                                                              Conducted:
                                                                                         Cumulative Total:      33


                                                                                                                                                       DOT OIG Monthly Report Num 13 03-31-10
                                                    OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Department of Transportation - OIG
  Month Ending Date: 04/30/2010

       No.                            OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)

                     On April 16th, a DOT OIG Program Manager spoke before the Airports Council International-North America Spring
        1            Legal Conference in San Antonio, Texas, on OIG's review of FAA's process for awarding ARRA grants to airport
                     projects.
       No.                                  OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
                     On May 19 , the Inspector General will speak at the 18th Biennial Forum of Government Auditors on the OIG
                                 th
        1
                     community's strategy for promoting accountability.

        2




                                                                                                          DOT OIG Monthly Report Num 13 03-31-10
                                                                               OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Department of Transportation - OIG
   Month Ending 04/30/2010
           Date:


                                                                                            TRAINING ACTIVITIES
                                                                                                                                                       Hours of
                                                                                               Training                      Length of                 Training                     Presentation     Average
                                                                                                               Date of                   Number of                     Cost of
     No.               Type of Training       Target Audience       Title of Training        Location (City,                  Training                Provided                       with Other     Evaluation
                                                                                                               Training                 Participants                   Training
                                                                                                 State)                       (hours)                  (length x                        OIGs          Rating
                                                                                                                                                     participants)
       1         Fraud Prevention/Awareness   Mixed             FTA ARRA Seminar            Los Angeles, CA       4/1/2010            1           34             34                 No
                                                                Fraud Prevention/
       2         Fraud Prevention/Awareness   Federal                                       Sacarmento, CA        4/1/2010            1                         20                  No
                                                                Awareness Briefing                                                                20
                                                                Navigating the
       3         Fraud Prevention/Awareness   Mixed             Regulatory Minefield        Walthan, MA           4/6/2010            1                        130                  No
                                                                Program                                                                          130
                                                                Fraud Prevention/
       4         Fraud Prevention/Awareness   State                                         Harrisburg, PA        4/6/2010            1                         45                  No
                                                                Awareness Briefing                                                                45
                                                                Fraud Prevention/
       5         Fraud Prevention/Awareness   Mixed                                         Oakland, CA           4/7/2010            1                         20                  No
                                                                Awareness Briefing                                                                20
                                                                Fraud Prevention/
       6         Fraud Prevention/Awareness   Federal                                       Washington, DC      4/13/2010             1                        100                  No
                                                                Awareness Briefing                                                               100
                                                                Conference of
       7         Fraud Prevention/Awareness   Mixed             Transportation Auditors &   Nashville, TN       4/14/2010             1                        350                  No
                                                                Accountants                                                                      350
                                                                FTA Management
       8         Fraud Prevention/Awareness   Mixed                                         New York, NY        4/15/2010             1                         40                  No
                                                                Oversight Seminar                                                                 40
                                                                Fraud Prevention/
       9         Fraud Prevention/Awareness   State                                         Dunmore, PA         4/15/2010             1                         35                  No
                                                                Awareness Briefing                                                                35
                                                                MT Transit Assoc
      10         Fraud Prevention/Awareness   Mixed                                         Bozeman, MT         4/22/2010             1                         30                  No
                                                                Conference                                                                        30
      11                                                                                                                                                              N/A                          N/A
      12                                                                                                                                                              N/A                          N/A
                                                                                                                              TOTAL              804           804


                                                OUTREACH ACTIVITIES
                                                 Number of
                                               Organizations                                 Outreach
                    Organization to which                                                                       Date of
     No.                                       Represented at Description of Outreach      Location (City,
                     Outreach Provided                                                                         Outreach
                                                 Outreach                                      State)
                                                  Session
                 Maryland Dept. of                             Discussed Fraud Prevention
       1                                                     1                            Annapolis, MD           4/8/2010
                 Transportation                                Strategies
       2
       3
       4


                                                                                                                                                                            DOT OIG Monthly Report Num 13 03-31-10
